NO. 20-6847

IN THE
SUPREME COURT OF THE UNITED STATES

CHRISTOPHER TORRES, also known as
Christopher Muhammad,
Petitioner
versus
BRAD LIVINGSTON, ET AL.,
Respondents

On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Fifth. Circuit

PETITION FOR REHEARING

Christopher Torres #1142645,
alsolmomlasChristopher Muhammad
WYNNE Prison Unit
810 F.M. 2821
Huntsville, Texas 77349
Pro Se

RECEIVED
APR 2 7 2021
OFFICE OF THE CLERK
SUPREME COURT U.S.

WHY PETITION FOR REHEARING MUST BE GRANTED
On March 22, 2021, this Court denied the petition for a writ
of certiorari filed by Petitioner Christopher Torres, also known
as Christopher Muhammad (hereinafter "Muhammad"). Muhammad
respectfully declares that this petition for rehearing must be
granted for the following "intervening circumstance(s),6fla con
trolling effect," and/or "extraordinary circumstance(s)," and/or
"independent reason(s)":
Muhammad has, in the past, informed this Court that he is [a]
rrlepresentative of the [0]ne known---among many other Names---as
"God," "Messiah," "Mandi," and "the Sovereign of the Universe." 1
Muhammad also has informed this Court that God visited this country in the early 1900's in the Person (the Human body) of Master
W. Fard Muhammad (hereinafter "God"), Who is in the Heavens in a
, *2
which former
giant aircraft (referred to as the "Motherplane"),
military and political officials from this country and elsewhere
have testified that they have tried to chase and attack "without
success."

*1

*2
*3

sae pp. 8, 9, 11 and 15 of In re Christopher Torres, filed on May 13,
2009 and placed on the docket May 20, 2009 as No. 08-10485; sae also pp.
20, 23-25 of Christopher Torres, a.k.a. Christopher Muhammad v. Stephens,
filed on September 11, 2015 and placed on the docket December 9, 2015 as
No. 15-7293.
sae p. 30 of petition for writ of certiorari of said No. 15-7293.
sae p. 28 of petition for writ of certiorari of said No. 15-7293 citing
www.citizenhearing.org/testimonies.html which shows 30-hours of testimony
in Washington, D.C. given by military and political officials representing
10 (ten) countries---including the United States---to six former members
of Congress about events and evidence about the Mother Plane and 1,500
baby planes, commonly referred to as "U.F.O.s".

-1-

While Muhammad is [a] [r]epresentative of the Most High God,
[the] [R]epresentative of said God is Louis Farrakhan who on July
4th, 2020, delivered a message to the world at www.noi.org titled,
"The Criterion". During the said July 4th, 2020 message, Farrakhan
said the following in regards to the deadly COVID-19 which currently has variants resistant to vaccines:
"...The deadly corona-virus is a God-sent pestilence and
neither America, China nor others will escape its grip. ..."
"...I want to tell you right up front you will not conquer
this virus because it didn't come from Wuhan. It didn't come
from Fort Detrick in Maryland because if you had made it,
you would know how to handle what you made. But you don't
know this virus, it's new it's different. It mutates and
goes in different directions with a different strain of
itself. ..."
"...We are under the Judgement of God. ..."
"...We all will reap what we sow.
..America won't solve it (COVID-19). The scientists of the
world won't solve it. ..."
"...What will you do with corona, a pestilence from God? What
will you do? What can you do? You are at your wits end. ..."
In March 2020, a high ranking Texas prison official, named
Akbar Shabazz, wronged Muhammad. Immediately after Shabazz wronged
Muhammad, God told Muhammad to forgive Shabazz pursuant to HOLY
QUR'AN 45:14 (Maulana Muhammad Ali translation, p. 948 (1999)),
and Muhammad obeyed God. In April 2020, God killed Shabazz with
COVID-19.
Muhammad is just like God Who says in EZEKIEL 33.11---"...As
surely as I live, declares the Sovereign Lord, I take no pleasure
in the death of the wicked, but rather that they turn from their
ways and live. Turn! Turn from your evil ways! Why will you die...?"

-2-

If this Court does not grant this petition for rehearing so
Muhammad will receive justice in this instant case, God has already told Muhammad to forgive everyone at this Court and He (God)
will reward all of you (who are handling this petition) with what
all of you earn and He (God) will not wrong you.
CONCLUSION
Due to the above said intervening circumstance(s) of a controlling effect, and/or extraordinary circumstance(s), and/or indepenent reason(s), this petition for rehearing must be granted.
Respectfully submitted,

abtiomwa"...."

Christopher Torres, aka
Christopher Muhammad
Pro Se
April 15, 2021

at4-44 71/4hArtAaade
aLt
f&A414
LI/ 01114:1SW)
/5/ z°4
fix
#4t
/at
e5
rt
4&.14,6A
dedeldle
/ 44 Atize_a4:7 Ara tthzee/ Sice 44'

racr m
allA444e-1

Scot,- NitAna, Claek.
Szt_pittae,(0-2-vit
/4)41-St/ eOAAAIL, AOC 00543 ,o°o/

-3-

CERTIFICATION OF PARTY UNREPRESENTED BY COUNSEL

I, Christopher Torres, aka Christopher Muhammad, certify that
the foregoing petition for rehearing is restricted to the grounds
specified in SUPREME COURT RULE 44.2 and that it is presented in
good faith and not for delay.

Christopher Muhammad

No. 20-6847

IN THE
SUPREME COURT OF THE UNITED STATES

CHRISTOPHER TORRES, aka
Christopher Muhammad --- Petitioner
v.
BRAD LIVINGSTON, ET AL.,
Respondents
PROOF OF SERVICE
I, Christopher Torres, aka Christopher Muhammad, do declare
that on April 15, 2021, as required by Supreme Court Rule 29 I
have served the enclosed Petition for Rehearing to the Respondents'
counsel in the above proceeding by depositing an envelope containing the above document in the U.S. mail box on the WYNNE Prison
Unit properly addressed to Respondents' counsel and with firstclass postage pre-paid.
The name and address of the said counsel served is as follows:
P. Trent Peroyea,
Asst. Attorney General of Texas
P.O. BOX 12548
Austin, TX 78711
NOTE: I further declare under penalty of perjury that on April 15,
2021, I placed in the above said mail box my petition for
rehearing addressed to: Mr. Scott Harris, CLERK, U.S.
SUPREME COURT, 1 First Street, N.E., Washington, DC 205430001. X+045 plercad /ft 4K Envelope wila posy. ?Pe -Para.
I declare under penalty of perjury that the foregoing is true
and correct.
Executed on April 15, 2021.

ekudirewPY,Sumazi,
Christopher Muhammad

